     INSPECTOR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                         WASHINGTON, D.C. 20436



February 11, 1991



           R.evi.ew of USJ:TC's CQapli.ence vi.th the Pederal.
             tlfme.gers' Pinend.al. ntt.egr1.ey Aet of 1982

The Federal Managers' Financial Integrity Act of 1982, Public Law
97-255,   requires executive agencies      to establish internal
accounting and administrative controls in accordance with the
Comptroller General standards and related requirements.     The Act
further requires that agency heads submit an annual statement to
the President and the Congress on the adequacy of internal controls
and actions taken to correct weaknesses identified. The Commission
has elected to comply with the Act since its inception.
This review was scheduled to fulfill the function of the Office of
Inspector General to report annually to the Chairman on the
adequacy of the Commission's review of internal controls.       The
objectives of this review were to:     (1) determine the status of
the Commission's compliance with the Act and applicable guidelines
for the year ended September· 30, 1990; (2) evaluate the procedures
developed to perform the internal control reviews, the results of
the reviews and proposed corrective actions; and (3) review and
evaluate corrective action taken on prior deficiencies.
I found that the evaluation of the system of internal accounting
and administrative control, as described in Guidelines for the
Evaluation and Improvement of and Reporting on Internal Control
Systems in the Federal Government, issued by the Director of the
Office of Management and Budget in consultation with the
Comptroller General, has been carried out in a reasonable and
prudent manner in the commission for the fiscal year ended
September 30, 1990.    During this review, nothing came to our
attention that would indicate that the Commission did not
substantially comply with the above-mentioned guidelines.
In a memorandum to the Chairman dated December 20, 1990, the
Internal Control Officer reported that there was one material
internal control weakness to report for the Commission. Based on
the applicable criteria and reviews and observations of Commission
operations, we concurred with this conclusion.
During the review, we found that the internal control reviews were
generally conducted in accordance with the guidance provided in
Directive 1601.2 with the exception of the testing of internal
controls for which additional training needs to be provided. We
observed that two of the assessable units should be reevaluated in
the annual update of the management evaluation plan. We found that
corrective action was taken on prior year recommendations and that
the Commission has implemented two and given adequate consideration
to another four policy suggestions made by the Office of Management
and Budget to improve management control.
The Internal Control Officer is aware of these issues and, we
believe, is either taking appropriate action or giving proper
consideration to the issues; therefore, we have made no
recommendations in this report.    We particularly support his
efforts to have responsible officials attend training on how to
conduct internal control reviews.
The Director, Office of Administration agreed with our findings and
to implement the suggestions. His comments are presented in their
entirety as an Appendix to this report.


                                                             'tXl~;u
                                    A                   /                                        ~-


                               U
                                      -1 ;'1 • < J-
                                   l.,·
                                      ,. I   '-"   j-... I   t
                                                                 ./    1 · · · .,
                                                                      (...
                                                                                    -r   <....
                                                                                             u

                              /Jane E. Al tenhofe '/
                             / Inspector General
                                                               Page

INTRODUCTION AND SCOPE •                                           1
BACKGROUND .                                                       2

FINDINGS • .                                                       3
MATERIAL INTERNAL CONTROL WEAKNESS .                               3

INTERNAL CONTROL REVIEWS .                                         4

     Testing . •                                                   4

ASSESSABLE UNITS .                                                 5
PRIOR YEAR RECOMMENDATIONS                                         6

     Revised Directive • • •                                       6

     Identified Weaknesses •                                       6

MANAGEMENT CONTROL PROGRAM OPERATIONS                              7




Attachments
     1.    Memorandum to Acting Chairman dated December 20, 1990

     2.    Guidance on Determining Material Weaknesses

     3.    Guidance on Determining Material Nonconfor.mances


Appendix         Memorandum from Director, Office of Administration,
                 dated February 7, 1991, on Draft Report
      This review was scheduled to fulfill the function of the Office of
.._   Inspector General to report annually to the Chairman on the
      adequacy of the Conunission' s review of internal controls.    The
      objectives of this review were to:    (1) determine the status of
      the Commission's compliance with the Federal Managers' Financial
      Integrity Act (FMFIA) and applicable guidelines for the year ended
      September 30, 1990; (2) evaluate the procedures developed to
      perform the internal control reviews (ICRs), the results of the
      reviews and proposed corrective actions; and (3) review and
      evaluate corrective action taken on prior deficiencies.
      The FMFIA is applicable to executive agencies. As set forth in a
      memorandum from the General Counsel (GC-J-138, dated August 19,
      1986), the Commission is not an executive agency and therefore not
      subject to the Act.    The Commission has chosen to voluntarily
      follow the provisions of the Act and implementing circulars issued
      by the Office of Management and Budget (OMB) .         Accordingly,
      references to "compliance" in this report are based on the adoption
      of directives consistent with the Act and regulations.
      The review was conducted in November and December 1990.          I
      evaluated the Commission's efforts to comply with the requirements
      of the Act, and guidance issued by the OMB in Circulars A-123 and
      A-127 for the reporting period ended September 1990.        I also
      evaluated the Commission's compliance with additional guidance
      provided by OMB in 1990 on improving management control reporting
      program operations (June 4 memoranda) and the 1990 FMFIA reporting
      requirements (July 5 memoranda).
      The review focused on ICRs conducted in fiscal year (FY) 1990 for
      four assessable units: Ethics in Government, Technical Assistance
      (except Trade Agreements), Mail Services, and Trade Remedy
      Assistance.   We determined whether the ICRs were conducted in
      accordance with Commission· policy and procedures and reviewed
      supporting documentation.
      We also determined whether Alternative ICRs identified for five
      assessable units - ADP Systems, Information Security, Personnel
      Services, Payroll/Timekeeping, and Budgeting - properly met the
      requirements of conducting an ICR. A triennial Federal Information
      Resources Management Review, which included an OMB Circular A-130
      review, was conducted for ADP Systems. Inspector General audits
      were conducted of Information Security, Personnel Services,
      Payroll/Timekeeping, and Budgeting.
      This review was performed in accordance with generally accepted
      government auditing standards. Accordingly, the review included
      an examination of internal controls and other auditing procedures
      that were considered necessary under the circumstances.
                                       1
The FMFIA requires executive agencies to establish internal
accounting and administrative controls in accordance with the
Comptroller General standards and related requirements. It further
requires that agency heads submit an annual statement to the
President and the congress on the adequacy of internal controls and
actions taken to correct weaknesses identified. The Commission,
which is not defined as an executive agency, has elected to comply
with the Act since its inception.
OMB has issued two circulars providing guidance to agencies on
implementing the requirements of the FMFIA. OMB Circular A-123,
Internal Control Systems, revised as of August 16, 1983, prescribes
policies and procedures executive agencies are to follow in
establishing, maintaining, evaluating, improving and reporting on
internal controls in their program and administrative activities.
OMB Circular A-127, Financial Management Systems, issued on
December 19, 1984, defines policies and procedures agencies must
adhere to in developing, operating, evaluating, and reporting on
financial management systems.
USITC Directive 1601.2, dated July 23, 1990, establishes the
Commission's Guidelines for Conduct of Risk Assessments and
Internal Control Reviews. The Directive voluntarily incorporates
the OMB Circulars that provide guidance. Related guidance is set
forth in USITC Directive 2102, dated June 22, 1989, on Financial
Management System Policies.
The Commission's programs and operations have been divided into 30
assessable units for which an individual, usually an office
director, has been designated as the responsible official. These
officials are responsible for conducting ICRs as periodically
scheduled and responding to.the annual call for assurances issued
by the Commission • s Internal Control Officer {ICO), who is the
Director, Office of Administration.
In accordance with his responsibility to provide training, the ICO
scheduled two sessions on evaluating internal controls in 1990.
In June, all responsible officials were requested to attend a one-
day seminar on "How to Conduct Internal Control Reviews".       In
August, all senior staff were invited to attend a Small Agency
Council Management Seminar on the responsibilities and concepts in
establishing, maintaining and testing internal control systems.




                                 2
We found that the evaluation of the system of internal accounting
and administrative control, has been carried out in a reasonable
and prudent manner in the Commission for the FY ended September
30, 1990, and concurred in the identification of one material
internal control weakness. We found that the ICRs were generally
conducted in accordance with the guidance provided in Directive
1601.2 with the exception of the testing of internal controls for
which additional training needs to be provided. We observed that
two of the assessable units should be reevaluated in the ICO • s
annual update of the management evaluation plan.    We faun~ that
corrective action has been taken on prior year recommendations and
that the. Commission has implemented two and given adequate
consideration to another four policy suggestions made by OMB to
improve management control.




In a memorandum to the Acting Chairman dated December 20, 1990,
the ICO reported that there was one material internal control
weakness concerning the payroll and time and attendance procedures
to report for the Commission. Based on the applicable criteria and
my reviews and observations of Commission operations, we concurred
with this conclusion in a memorandum to the Acting Chairman dated
December 20, 1990, (Attachment 1).
As reported to the Commission in audit report #IG-06-90 issued on
September 21, 1990, we found a material internal control weakness
in the payroll and time and attendance procedures. The weakness,
which was the composite of multiple areas where internal controls
needed to be improved, met the criteria for materiality established
by OMB.    The OMB guidance· on defining material weaknesses is
presented in its entirety in Attachment 2.
The internal control weakness includes some areas of non-
conformance, and could have been classified as a material non-
conformance in accordance with the OMB criteria. The OMB guidance
on defining material nonconformances is presented in its entirety
in Attachment 3.
I concurred with the ICO that it was not necessary to report the
same finding as both a material internal control weakness and a
material nonconformance. To ensure full disclosure, the section
for reporting material nonconformances was footnoted.



                                 3
We found that the ICRs were generally conducted in accordance with
the guidance provided in Directive 1601.2 with the exception of the
testing of internal controls. Only one of the four ICRs conducted
in FY 1990 included testing.

Testing
OMB Circular A-123 and the implementing guidelines emphasize that
all internal control techniques must be tested and documentation
on the testing must be maintained by the responsible official.
Testing is important in order to ensure that controls are actually
being followed and to counteract the tendency of officials to rely
on controls they "know" to be in effect.
USITC Directive 1601.2 states that documentation showing testing
method, items tested and results will be maintained by the
responsible official. A form to record the results of testing and
an optional form to record the actual tests done are provided as
attachments to the Directive. Testing procedures are defined as
including:
          observation of operating procedures;
          physical examination of quantity and/or condition of
          tangible assets;
          confirmation of information accuracy by means of
          communication with independent third parties;
          interviews with employees facilitated by questionnaires
          or interview checklists; or
          analysis of transaction documents, if the performance of
          the control leaves documentary evidence.
We found that testing was done on only one of the ICRs - Technical
Assistance, in the form of sending questionnaires to selected
offices.    Two other ICRs (Mail Services and Trade Remedy
Assistance) included the form reporting test results, but the
results were not based on actual tests.
Individuals involved in conducting the three ICRs for which testing
was not done said, in general, that they did not conduct tests
because they did not see how that step applied to their assessable
unit. The ICO has recognized the need for better understanding of
the testing step. He included a statement in the Acting Chairman's
FY 1990 FMFIA Report that during FY 1991 the Commission planned to
provide training that addresses the testing of internal controls.
We concur with this approach and suggest that all of the
responsible officials scheduled to conduct ICRs in FY 1991
participate in this training.

                                 4
The Commission is currently segmented into 30 assessable units.
As stated in the Directive 1601.2, the assessable units change with
the passage of new laws, changing administrative emphasis,
identified program areas, and so forth.     Managers are to notify
the ICO of any additions, deletions or corrections to the
assessable units, and have done so on occasion.
We suggest that the ICO consider the following observations on
assessable units when updating the management evaluation plan.

1.   ADP Systems was scheduled for an ICR in FY 1990 to be
     accomplished by an Alternative ICR. When an Alternative ICR
     is done instead of the ICR, the event cycles are not
     identified and the processes are not described.      In the
     absence of this description, the assessable unit is not
     defined.   In talking with various officials, it was obvious
     that ADP systems needs to be reevaluated in terms of changes
     in technology, the Commission reorganization and the broader
     context of Information Resources Management.
2.   Mail Services was an assessable unit for which an ICR was
     conducted in FY 1990. The responsible official suggested to
     the ICO that this assessable unit might be a good candidate
     for removal since the function is performed by a contractor.
     We do not believe that functions performed by a contractor
     should necessarily be exempt from the FMFIA process.      If
     weaknesses were identified, a change order may be needed or
     possibly changes in the next contract. Furthermore, a cycle
     for monitoring the contract should be identified when the
     function is primarily performed by a contractor.

     As for mail services specifically, we believe a cycle for
     calculating postage costs is also warranted.    Mail services
     has a very specific process for determining the amount to be
     paid for postage.   We noted that a review of official mail ·
     utilization and equivalent postage conducted in April 1989
     found that the Commission had not accurately calculated the
     actual amount of postage, understating the amount of postage
     and resulting reimbursement to the Commission by nearly $5000.
     The internal control weaknesses that contributed to the
     undercalculation were not identified in FY 1989 or 1990.




                                 5
The OIG audit report on the FY 1989 FMFIA process stated that the
Commission had substantially complied with the requirements of OMB
Circular A-123. These requirements were to: maintain a current
internal control directive, develop a management control plan, make
risk assessments and internal control evaluations, and implement
corrective actions. The audit report included two recommendations,
to revise Directive 1601.1 and review identified weaknesses for
appropriateness.    Corrective action has been taken on both
recommendations.

Revised Directive
We recommended that the Directive be revised to include provisions
for coordination, clarify requirements for performance plans, and
establish training as an ICO responsibility.     The Directive was
revised as recommended and issued on July 23, 1990.
We also recommended that supervising officials be reminded of their
responsibility to ensure that performance plans for responsible
officials under their supervision result in recognition for
internal control accomplishments, such as timely correction of
internal control weaknesses and appropriate actions for violations
of internal controls. This was done in a memorandum to all Office
Directors on November 20, 1990.
The new guidance in the Directive and memorandum was issued too
late to be included in the performance periods for SES members that
ended on June 15, 1990, or for GM level staff that ended on August
15, 1990.   Next year, we will ascertain whether the perfo~ance
plans for responsible officials, as defined in Directive 1601.2,
have the required element on internal control.

Identified Weaknesses
We also recommended that items in the followup system be reviewed
for appropriateness and be deleted or rephrased as necessary. In
March 1990, the ICO notified the responsible officials of the audit
findings, provided guidance on listing weaknesses and corrective
actions, and requested that the lists of weaknesses be revised and
updated as necessary. In reviewing the lists, we found that the
identification of weaknesses and corrective actions were improved.




                                 6
We found that the Commission has implemented two of six policy
suggestions made by OMB. In their memorandum of June 4, 1990, OMB
expressed a concern that each agency have a comprehensive
management control program that identifies material weaknesses
promptly, develops effective corrective actions, targets the
necessary resources for resolution, and validates elimination or
reduction of the severity of the weaknesses.    OMB suggested that
agencies give priority to implementing six policies, if not already
part of the program, to effect such a program. These policies were
to:
1.   Integrate the FMFIA Management Control Review and Reporting
     Process with the Budget
2.   Establish an Early Warning Reporting Capability for Emerging
     Problems
3.   Establish an Agency Management Control Review Committee
4.   Establish FMFIA Training Programs for Managers
5.   Identify Relative Significance of Weaknesses
6.   Validate Corrective Actions
Two of these policies have been implemented. As discussed earlier
in this    report,   Directive 1601.2 was    revised to assign
responsibility to the ICO to provide training as needed.       In
accordance with this responsibility, the ICO arranged for two
training sessions on evaluating internal controls in 1990.     To
address the need for an early warning system, paragraph 4c(3) of
Directive 1601.2 sets forth.that Office Directors are responsible
for notifying their supervisor, Chairman, ICO, and the Inspector
General of a mission-critical problem or a deterioration of an
existing material weakness without regard to the normal annual
reporting cycle.
The other policies have not been implemented for various reasons
according to the ICO and his Special Assistant.   They said these
suggestions were for agencies that have high risk areas (the
Commission has none), and budget restrictions that impact on
implementation of corrective action (which is not the case at the
Commission).   The communication system within the Commission is
sufficient so that a Management Control Review Committee is not
needed. As for validating corrective actions, this is done for the
findings in audit reports and is not appropriate in the
Commission's ICR system which is management oriented.
                                   7
We concur that the training and early warning system were the most
important of the policy suggestions for the Commission at this
time.  The other suggestions can be reevaluated in the future if
the ICO becomes aware of such a need, possibly due to increased
emphasis by OMB of a specific policy or budget restrictions in
future Commission appropriations.




                                8
                                                                   Attachment 1
        INSPECI"OR GENERAL


                                                             IG-N-146




        UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON, D.C. 20436




December 20, 1990
MEMORANDUM

TO:           Acting Chairman
THRU:         Internal Control Officer         ~

FROM:         Inspector      Gener~~
SUBJECT:      Review of USITC's Compliance with the Federal Managers' Financial
              Integrity Act of 1982

The Federal Managers' Financial Integrity Act of 1982 requires executive
agencies to establish internal accounting and administrative controls in
accordance with the Comptroller General standards and related requirements.
The Act further requires that agency heads submit an annual statement to the
President and the Congress on the adequa~ of internal controls and actions
taken to correct weaknesses identified. The Commission, which is not defined
as an executive agency according to the Office of General Counsel, has elected
to comply with the Act since its inception.
The Inspector General is to report annually to the Chairman on the adequacy of
the Commission's review of internal controls. I reviewed and evaluated the
Commission's compliance with the Act and applicable guidelines for the fiscal
year ended September 30, 1990; the procedures developed to perfor.m the
internal control reviews; the results of the reviews and proposed corrective
actions; and corrective actions taken on prior deficiences.
I found that the evaluation of the system of internal accounting and
administrative control, as described in USIIC Guidelines for Conduct of Risk
Assessments and Internal Control Reviews, issued by the Director of the Office
of Management and Budget in consultation with the Comptroller General, has
been carried out in a reasonable and prudent manner in the Commission for the
fiscal year ended September 30, 1990. During the review, nothing came to my
attention that would indicate that the Commission did not substantially comply
with the above-mentioned guidelines. I will report on several areas in which
the evaluation process could be improved in a draft audit report to be issued
in January 1991.
The Commission's Internal Control Officer Report identifies one material
internal control weakness in the Commission concerning the payroll and time
and attendance procedures. Based on the applicable criteria and m¥ reviews
and observations of Commission operations, I concur with this conclusion.
If you have any questions, please contact me on 252-2210.
cc:   Commission
                                                  Attachment 2

          GUIDANCE ON DETERMINING MATERIAL WEAKNESSES


For determining whether weaknesses in internal control systems
(Section 2) are material, the weakness should meet one or more of
the following criteria:
         significantly impair the fulfillment of an agency or
         component's mission:
         deprive the public of needed services:
         violate statutory or regulatory requirements:
         significantly weaken safeguards against waste, loss,
         unauthorized use or misappropriation of funds, property,
         or other assets: or
          result in a conflict of interest.
Each material weakness should meet one or more of the following
additional criteria:
         merit the attention of the agency head/senior management,
         the Executive Office of the President, or the relevant
         Congressional oversight committee:
         exist in a majority of agency components or in a major
         program or activity:
         risk or result in the actual loss of either $10 million
         or 5 percent of the resources of a budget line item: or
         reflect adversely on the credibility of the agency report
         when subsequently made public.
                                                  Attachment 3
        GUIDANCE ON DETERMINING MATERIAL NONCONPORMANCES


For determining whether nonconformances (Section 4) are material,
the nonconformance should meet one or more of the following
criteria:
         merit the attention of the agency head/senior management,
         the Executive Office of the President, or the relevant
         Congressional oversight committee;
         prevent the agency primary accounting system from
         achieving   central  control   over agency financial
         transactions and resource balances;
         reflect nonconformances in a subsidiary or program system
         that causes nonconformances in the primary system or
         prevent compliance of the subsidiary or program system
         with GAO Title II as implemented in OMB Circular A-127,
         the Standard General Ledger, and the Core Financial
         Systems Requirements; or

         result in an actual material misstatement (either 5
         percent of a budget line item or $10 million) in reports
         required by the OMB, the Treasury Department, or the
         Congress.
                                                                     Appendix



                                                     AD-o-091




UNITED STATES INTERNATIONAL TRADE COMMISSION

                       WASHINGTON. DC 20436



February 7. 1991

MBMORAHDUM


m:           The Inspector General               J              _A
PROM:        Director, Office of   Mmmistrati~··J. ~
SUBJECT:     Draft Report. "Review of USITC' s Compliance with the
             P.MPIA of 1982 for Ff 1990"

As requested by Memorandum dated January 10, 1991 (IG-0-005).
submitted as an attachment to this memorandum is the Office of
Adnrinistration's response to the subject draft audit report issued
in January 1991. In accordance with Section 11 of the USITC
Directive 1701, the Commissioners have had an opportunity to
ccmment on the response and the Acting Chairman has approved it.
Please call me at 252-1131 or Bill Stuchbery at 252-1135 if you
have any questions.
Attachment
cc:     General Counsel
        Director, Office of Industries
        Director, Trade Remedy Assistance Office
        Director, Office of Management Services
        Director. Office of Information Resources Management
               Review of   usiTC' sCompliance with the PHPIA
                             of 1982 forrx  1990
                    (Office of Administration Comments)
The Office of Administration agrees with the Inspector General's
"Findings" on page 3 of the draft report and will proceed to
implement the following corrective actions:
1.   Provide internal control training for the managers who are
     responsible for assessable units. Training will include a
     segment on testing of internal controls.
     Due   Date:   June 28, 1991.
2.   The two assessable units, Mail Services and ADP Systems
     will be reevaluated in the update of the annual management
     evaluation plan.
     Due Date:     February 28, 1991.
